TN

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-1043
PAUL G., a conserved adult,
by and through his conservator Steve G.,
Petitioner,
VS.

COCKLE

Est. 1923

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

MONTEREY PENINSULA UNIFIED SCHOOL DISTRICT
and CALIFORNIA DEPARTMENT OF EDUCATION,

Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF IN OPPOSITION OF CALIFORNIA DEPARTMENT OF
EDUCATION in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were

plainly addressed to the following:

SEE ATTACHED

To be filed for:
KEITH YAMANAKA
General Counsel
AMY BISSON HOLLOWAY
Assistant General Counsel
LEN GARFINKEL
Deputy General Counsel
ELIZABETH STEIN
Deputy General Counsel
Counsel of Record
CALIFORNIA DEPARTMENT

OF EDUCATION

1430 N Street, Room 5319
Sacramento, California 95814
Telephone: 916-319-0860
Facsimile: 916-319-0155
Email: estein@cde.ca.gov
Attorneys for Respondent

Subscribed and sworn to before me this 18th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GERERAL MOTARY-State of Nebraska

RENEE J. @OSS
Ny Comm. Exp. September 5, 2023

 

Notary Public

 

Oudiaw-h, Bole

Affiant 39578
SERVICE LIST

F, Richard Ruderman

Colleen A. Snyder Holcomb
Counsel of Record

Ruderman and Knox, LLP

1300 National Drive, Suite 120
Sacramento, CA 95834

Telephone: (916) 563-0100
Facsimile: (916) 563-0114

Email: colleen@rudermanknox.com
Attorneys for Petitioner

Adam Jacobsen Davis

Davis & Young APLC

1960 The Alameda, Suite 210

San Jose, CA 95126-1451

Telephone: (669) 245-4200

Email: adavis@davisyounglaw.com

Attorneys for Respondent Monterey Peninsula Unified School District
